    DEPARTMENT OF HEALTH &. HUMAN SERVICES 	                                  Office of Inspector General


                                                                              Washington, D.C. 20201



                                             NOV - 1 2.010 



TO: 	             Donald M. Berwick, M.D.
                  Administrator
                  Centers for Medicare & Medicaid Services

                                /S/
FROM:             Stuart Wright
                  Deputy Inspector General
                     for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Comparison ofFirst-Quarter 2010 Average Sales Prices
           and Average Manufacturer Prices: Impact on Medicare Reimbursement for Third
           Quarter 2010, OEI-03-10-00440


This review was conducted in accordance with the statutory mandate for the Office of Inspector
General (OIG) to compare average sales prices (ASP) and average manufacturer prices (AMP)
for Medicare Part B prescription drugs and identify ASPs that exceed AMPs by at least
5 percent. The review estimated the financial impact of lowering reimbursement amounts for
drugs that met the 5-percent threshold and additionally examined the potential effect of a
July 2010 proposed rule that, among other things, specifies the circumstances under which the
Centers for Medicare & Medicaid Services (CMS) will make AMP-based price substitutions.

Since the advent of the ASP reimbursement methodology, OIG has issued 17 reports comparing
ASPs to AMPs. This latest pricing comparison examines drugs that met the 5-percent threshold
based on either complete or partial AMP data in the first quarter of 201 O. Of the 318 drugs with
complete AMP data in that quarter, 13 met the 5-percent threshold. IfCMS's proposed price
substitution policy had been in effect, reimbursement amounts for 10 of the 13 drugs would have
been reduced, resulting in an estimated savings of $840,000 in the third quarter of 20 1O. Of the
134 drugs with only partial AMP data in the first quarter of2010, 25 had ASPs that exceeded the
AMPs by at least 5 percent. According to CMS's proposed price substitution policy,
reimbursement amounts for drugs with partial AMP data would not be subject to reduction
because the partial AMP data may not adequately reflect market trends. However, missing
AMPs for 7 of the 25 drugs likely had little influence on the outcome of the pricing comparisons,
which means that price reductions may be appropriate in these cases. We could not perform
pricing comparisons for an additional 68 drugs because none of the drug products used to
establish Medicare reimbursement had corresponding AMP data. Manufacturers for
23 percent of those drug products had Medicaid drug rebate agreements and were therefore
generally required to submit AMPs.




OEI-03-10-00440       Comparison of First-Quarter 2010 ASPs and AMPs
Page 2 – Donald M. Berwick, M.D.


BACKGROUND

The Social Security Act (the Act) mandates that OIG compare ASPs to AMPs. 1 If OIG finds
that the ASP for a drug exceeds the AMP by a certain percentage (currently 5 percent), section
1847A(d)(3)(A) of the Act states that the Secretary of the Department of Health & Human
Services (the Secretary) may disregard the ASP for the drug when setting reimbursement
amounts. 2 Section 1847A(d)(3)(C) of the Act further states that “… the Inspector General shall
inform the Secretary (at such times as the Secretary may specify to carry out this subparagraph)
and the Secretary shall, effective as of the next quarter, substitute for the amount of payment …
the lesser of (i) the widely available market price … (if any); or (ii) 103 percent of the average
manufacturer price….”

Medicare Part B Coverage of Prescription Drugs
Medicare Part B covers only a limited number of outpatient prescription drugs. Covered drugs
include injectable drugs administered by a physician; certain self-administered drugs, such as
oral anticancer drugs and immunosuppressive drugs; drugs used in conjunction with durable
medical equipment; and some vaccines.

Medicare Part B Payments for Prescription Drugs
CMS contracts with private companies, known as Medicare Administrative Contractors (MAC),
to process and pay Medicare Part B claims, including those for prescription drugs. To obtain
reimbursement for covered outpatient prescription drugs, health care providers submit claims to
their MACs using procedure codes. CMS established the Healthcare Common Procedure
Coding System (HCPCS) to provide a standardized coding system for describing the specific
items and services provided in the delivery of health care. In the case of prescription drugs, each
HCPCS code defines the drug name and the amount of the drug represented by the HCPCS code
but does not specify manufacturer or package size information.

Medicare and its beneficiaries spent over $11 billion for Part B drugs in 2009. 3 Although
Medicare paid for nearly 800 outpatient prescription drug HCPCS codes that year, most of the
spending for Part B drugs was concentrated on a relatively small subset of those codes. In 2009,
64 HCPCS codes accounted for 90 percent of the expenditures for Part B drugs, with only 13 of
these codes representing the majority (52 percent) of total Part B drug expenditures.

Reimbursement Methodology for Part B Drugs and Biologicals
Medicare Part B pays for most covered drugs using a reimbursement methodology based on
ASPs. 4 As defined by law, an ASP is a manufacturer’s sales of a drug to all purchasers in the

1
  Section 1847A(d)(2)(B) of the Act.
2
  Section 1847A(d)(3)(B)(ii) of the Act provides the Secretary with authority to adjust the applicable threshold
percentage in 2006 and subsequent years; however, the threshold percentage has been maintained at 5 percent.
3
  Medicare expenditures for Part B drugs in 2009 were calculated using CMS’s Part B Analytics and Reports
(PBAR). The PBAR data for 2009 were 98 percent complete when the data were downloaded in March 2010.
4
  Several Part B drugs, including certain vaccines and blood products, are not paid under the ASP methodology.



OEI-03-10-00440        Comparison of First-Quarter 2010 ASPs and AMPs
Page 3 – Donald M. Berwick, M.D.


United States in a calendar quarter divided by the total number of units of the drug sold by the
manufacturer in that same quarter. 5 The ASP is net of any price concessions, such as volume
discounts, prompt pay discounts, cash discounts, free goods contingent on purchase
requirements, chargebacks, and rebates other than those obtained through the Medicaid drug
rebate program. 6 Sales that are nominal in amount are exempted from the ASP calculation, as
are sales excluded from the determination of “best price” in Medicaid’s drug rebate program. 7, 8

Manufacturers that participate in the Medicaid drug rebate program must provide CMS with the
ASP and volume of sales for each of their national drug codes (NDC) on a quarterly basis, with
submissions due 30 days after the close of each quarter. 9 An NDC is an 11-digit identifier that
represents a specific manufacturer, product, and package size.

Because Medicare Part B reimbursement for outpatient drugs is based on HCPCS codes rather
than NDCs and more than one NDC may meet the definition of a particular HCPCS code, CMS
has developed a file that “crosswalks” manufacturers’ NDCs to HCPCS codes. CMS uses
information in this crosswalk file to calculate volume-weighted ASPs for covered HCPCS codes.

Calculation of Volume-Weighted ASPs
Third-quarter 2010 Medicare payments for most covered drug codes were based on
first-quarter 2010 ASP submissions from manufacturers, which were volume-weighted using an
equation that involves the following variables: the ASP for the 11-digit NDC as reported by the
manufacturer, the volume of sales for the NDC as reported by the manufacturer, and the number
of billing units in the NDC as determined by CMS. 10 The amount of the drug contained in an
NDC may differ from the amount of the drug specified by the HCPCS code that providers use to
bill Medicare. Therefore, the number of billing units in an NDC describes the number of
HCPCS code units that are in that NDC. For instance, an NDC may contain a total of
10 milliliters of Drug A, but the corresponding HCPCS code may be defined as only 5 milliliters
of Drug A. In this case, there are two billing units in the NDC. CMS calculates the number of
billing units in each NDC when developing its crosswalk files.

Under the ASP pricing methodology, the Medicare allowance for most Part B drugs is equal to
106 percent of the volume-weighted ASP for the HCPCS code. Medicare beneficiaries are
responsible for 20 percent of this amount in the form of coinsurance.

5
  Section 1847A(c) of the Act, as added by the Medicare Prescription Drug, Improvement, and Modernization Act of
2003, P.L. 108-173.
6
  Section 1847A(c)(3) of the Act.
7
  Section 1847A(c)(2) of the Act.
8
  Pursuant to section 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available from the manufacturer
during the rebate period to any wholesaler, retailer, provider, health maintenance organization, nonprofit entity, or
governmental entity within the United States, with certain exceptions.
9
  Section 1927(b)(3) of the Act.
10
   The equation that CMS currently uses to calculate volume-weighted ASPs is described in section 1847A(b)(6) of
the Act. It is also provided in Appendix A.




OEI-03-10-00440        Comparison of First-Quarter 2010 ASPs and AMPs
Page 4 – Donald M. Berwick, M.D.


The Medicaid Drug Rebate Program and AMPs
For Federal payment to be available for covered outpatient drugs provided under Medicaid, the
Act mandates that drug manufacturers enter into rebate agreements with the Secretary and pay
quarterly rebates to State Medicaid agencies. 11 Under these rebate agreements and pursuant to
the Act, manufacturers must provide CMS with the AMPs for each of their NDCs. 12 As further
explained in regulation, manufacturers are required to submit AMPs within 30 days after the end
of each month and each quarter. 13

During the first quarter of 2010, the AMP was generally defined by statute to be the average
price paid to the manufacturer for the drug in the United States by wholesalers for drugs
distributed to the retail pharmacy class of trade. 14, 15 The AMP is generally calculated as a
weighted average of prices for all of a manufacturer’s package sizes of a drug and is reported for
the lowest identifiable quantity of the drug (e.g., 1 milliliter, 1 tablet, 1 capsule). 16

Penalties for Failure To Report Timely Drug Pricing Data
Under the law, manufacturers that fail to provide ASP and AMP data on a timely basis may be
subject to civil money penalties and/or termination from the drug rebate program. 17, 18
Accordingly, CMS has terminated rebate agreements with a number of manufacturers for failure
to report AMPs and, for the purposes of evaluating potential civil money penalties, has referred
to OIG manufacturers that failed to submit timely AMPs. 19 At the time of our review, no
manufacturers had been terminated or formally referred to OIG for failure to report timely ASPs.
In September 2010, OIG announced a new enforcement initiative under which OIG would begin
imposing civil money penalties on manufacturers that failed to report timely ASPs and/or AMPs.

Office of Inspector General’s Monitoring of ASPs and AMPs
In accordance with its statutory mandate, OIG has issued 15 quarterly pricing comparisons since
the ASP reimbursement methodology for Part B drugs was implemented in January 2005. In
addition, OIG has completed two annual overviews of ASPs and AMPs, which examined data

11
   Sections 1927(a)(1) and (b)(1) of the Act.
12
   Section 1927(b)(3) of the Act.
13
   42 CFR § 447.510.
14
   Section 1927(k)(1) of the Act.
15
   Effective October 2010, section 2503 of the Patient Protection and Affordable Care Act, P.L. 111-148, changes
the definition of AMP in a way that is not relevant for the purposes of this report. However, it may affect pricing
comparisons between ASPs and AMPs for the fourth quarter of 2010 and beyond.
16
   As specified in 42 CFR § 447.504(i), a quarterly AMP is calculated as a weighted average of monthly AMPs in
the quarter. However, the manufacturer must adjust the AMP for a quarter if cumulative discounts, rebates, or other
arrangements subsequently adjust the prices actually realized.
17
   Sections 1927(b)(3)(C)(i) and (4)(B)(i) of the Act.
18
   The Secretary delegated to OIG the responsibility to impose civil money penalties for violations of
section 1927(b)(3)(C) of the Act in 59 Fed. Reg. 52967 (Oct. 20, 1994).
19
   CMS began referring noncompliant manufacturers to OIG in response to a 2005 report entitled Deficiencies in the
Oversight of the 340B Drug Pricing Program (OEI-05-02-00072). As part of this report, OIG recommended that
CMS consider referring manufacturers whose pricing data submissions do not comply with reporting requirements
to OIG so that penalties could be imposed in appropriate cases.



OEI-03-10-00440        Comparison of First-Quarter 2010 ASPs and AMPs
Page 5 – Donald M. Berwick, M.D.


across all four quarters of 2007 and 2008, respectively. A list of all 17 reports is provided in
Appendix B.

OIG has consistently recommended that CMS develop a process to adjust payment amounts
based on the results of these pricing comparisons and subsequently lower reimbursement for
drugs that meet the 5-percent threshold. Although CMS has yet to make any changes to Part B
drug reimbursement as a result of these studies, the agency published a proposed rule in
July 2010 that, among other things, specifies the circumstances under which AMP-based price
substitutions would occur. 20

CMS’s Proposed Price Substitution Policy
Under CMS’s proposed price substitution policy, 103 percent of the AMP would be substituted
for the ASP-based reimbursement amount when OIG identifies a HCPCS code that meets the
5-percent threshold in two consecutive quarters or three of four quarters. Because CMS believes
that substituted prices based on partial AMP data may not adequately reflect market trends, the
agency would lower reimbursement amounts only when ASP and AMP comparisons are based
on the same set of NDCs (i.e., based on complete AMP data). HCPCS codes that meet the
5-percent threshold based on partial AMP data would not be eligible for price substitution.

Price substitutions would take effect in the quarter after OIG shares the results of its most recent
pricing comparison and would remain in effect for one quarter. To prevent CMS’s proposed
policy from inadvertently raising the Medicare reimbursement amount, a price substitution
would not occur when the substituted amount is greater than the ASP-based payment amount
calculated for the quarter in which the price substitution would take effect. Although CMS plans
to implement its price substitution policy beginning in 2011, no payment substitutions will occur
before a preliminary injunction issued on December 19, 2007, by the United States District Court
for the District of Columbia is vacated. 21, 22

METHODOLOGY

We obtained a file from CMS containing NDC-level ASP data from the first quarter of 2010,
which were used to establish Part B drug reimbursement amounts for the third quarter of 2010.
This file also includes information that crosswalks NDCs to their corresponding HCPCS codes.
Both the ASP data and the crosswalk data were current as of June 29, 2010. We also obtained
AMP data from CMS for the first quarter of 2010, which were current as of May 10, 2010.

Analyzing ASP Data From the First Quarter of 2010
As mentioned previously, Medicare does not base reimbursement for covered drugs on NDCs;
instead, it uses HCPCS codes. Therefore, CMS uses ASP information submitted by

20
   75 Fed. Reg. 40040, 40259 (July 13, 2010).
21
   75 Fed. Reg. 40040, 40158 (July 13, 2010).
22
   The injunction prohibits CMS from using AMPs in a way that affects Medicaid reimbursement rates and from
disclosing AMPs to States and the public.



OEI-03-10-00440       Comparison of First-Quarter 2010 ASPs and AMPs
Page 6 – Donald M. Berwick, M.D.


manufacturers for each NDC to calculate a volume-weighted ASP for each covered HCPCS
code. When calculating these volume-weighted ASPs, CMS includes only NDCs with ASP
submissions that are deemed valid.

As of July 2010, CMS had established prices for 529 HCPCS codes based on the ASP
reimbursement methodology mandated by section 1847A(b)(6) of the Act. Reimbursement
amounts for the 529 HCPCS codes were based on ASP data for 3,203 NDCs.

Analyzing AMP Data From the First Quarter of 2010
To ensure that the broadest range of drug codes is subject to OIG’s pricing comparisons, we
divided HCPCS codes into the following three groups:

           (1) HCPCS codes with complete AMP data—i.e., HCPCS codes with AMP data for
               every NDC that CMS used in its calculation of volume-weighted ASPs;

           (2) HCPCS codes with partial AMP data—i.e., HCPCS codes with AMP data for only
               some of the NDCs that CMS used in its calculation of volume-weighted ASPs; and

           (3) HCPCS codes with no AMP data—i.e., HCPCS codes with no AMP data for any of
               the NDCs that CMS used in its calculation of volume-weighted ASPs.

As previously noted, the AMP for each NDC is reported for the lowest identifiable quantity of
the drug contained in that NDC (e.g., 1 milliliter, 1 tablet, 1 capsule). In contrast, the ASP is
reported for the entire amount of the drug contained in the NDC (e.g., 50 milliliters, 100 tablets).
To ensure that the AMP would be comparable to the ASP, it was necessary to convert the AMP
for each NDC so that it represented the total amount of the drug contained in that NDC.

To calculate “converted AMPs” for NDCs in the first and second groups, we multiplied the AMP
by the total amount of the drug contained in each NDC, as identified by sources such as the CMS
crosswalk file, manufacturer Web sites, Thomson Reuters’ Red Book, and the Food and Drug
Administration’s NDC directory. 23 For certain NDCs, we were unable to successfully identify
the amount of the drug reflected by the ASP and therefore could not calculate a converted AMP.
Because of these unsuccessful AMP conversions, a total of nine HCPCS codes were removed
from our analysis.

Using NDCs with successful AMP conversions, we then calculated a volume-weighted AMP for
each of the corresponding HCPCS codes, consistent with CMS’s methodology for calculating
volume-weighted ASPs. When calculating the volume-weighted AMP for a HCPCS code with
partial AMP data, we excluded any NDCs without AMPs; however, we did not exclude those
NDCs from the corresponding volume-weighted ASP. This means that the volume-weighted
AMP for a HCPCS code with partial AMP data is based on fewer NDCs than the volume-
weighted ASP for that same code. Appendix C provides a more detailed description of the
23
     We did not calculate converted AMPs for NDCs in the third group because those NDCs had no AMP data.



OEI-03-10-00440         Comparison of First-Quarter 2010 ASPs and AMPs
Page 7 – Donald M. Berwick, M.D.


methods we used to both convert AMPs and calculate volume-weighted AMPs. Table 1
provides the final number of HCPCS codes and NDCs included in our analysis after we removed
NDCs with either no AMP data or unsuccessful AMP conversions.

Table 1: Number of Drug Codes and NDCs Included in OIG’s Pricing Comparison
                                                                              Number of          Number of
 Availability of AMP Data for HCPCS Codes
                                                                           HCPCS Codes              NDCs

 Complete AMP Data                                                                   318              1,138

 Partial AMP Data                                                                    134              1,081

 No AMP Data                                                                          68               260

Source: OIG analysis of first-quarter 2010 ASP and AMP data, 2010.


Comparing First-Quarter 2010 Volume-Weighted ASPs and AMPs for HCPCS Codes
With Complete AMP Data
For each of the 318 HCPCS codes with complete AMP data, we compared the volume-weighted
ASP and AMP and determined whether the ASP for the code exceeded the AMP by at least
5 percent. For HCPCS codes that met the 5-percent threshold, we reviewed the associated NDCs
to verify the accuracy of the billing unit information. According to our review, none of the
HCPCS codes that met the threshold based on complete AMP data were associated with
questionable billing units. However, we excluded one HCPCS code from our findings because
the manufacturer of the corresponding NDC indicated to OIG that the AMP data were not
correct. 24

For each of the remaining HCPCS codes that met the 5-percent threshold, we estimated the
monetary impact of lowering reimbursement to 103 percent of the AMP. 25 First we calculated
103 percent of the volume-weighted AMP and subtracted this amount from the third-quarter
2010 reimbursement amount for the HCPCS code. To estimate the financial effect for the third
quarter of 2010, we then multiplied the difference by one-fourth of the number of services that
were allowed by Medicare for each HCPCS code in 2009, as reported in the PBAR. 26, 27
To determine which HCPCS codes would have been subject to CMS’s proposed price
substitution policy, we identified codes with complete AMP data that met the 5-percent threshold
24
   In the course of a previous study (see OEI-03-09-00350), a manufacturer notified us that the AMP data for one of
its NDCs were incorrect for all four quarters of 2008. The first-quarter 2010 AMP for that NDC was the same as the
fourth-quarter 2008 AMP identified by the manufacturer as incorrect; therefore, we assumed that the first-quarter
2010 AMP was incorrect as well. We will provide the name of this manufacturer to CMS for followup.
25
   Section 1847A(d)(3)(C) of the Act directs the Secretary to replace payment amounts for drugs that meet the
5-percent threshold with the lesser of the widely available market price for the drug (if any) or 103 percent of the
AMP. For the purposes of this study, we used 103 percent of the AMP to estimate the impact of lowering
reimbursement amounts. If widely available market prices had been available for these drugs and lower than
103 percent of the AMP, the savings estimate presented in this report would have been greater.
26
   The PBAR data for 2009 were 98 percent complete when the data were downloaded in March 2010.
27
   All savings estimates in this report assume that the number of services that were allowed by Medicare in 2009
remained consistent from one quarter to the next and that there were no significant changes in utilization between
2009 and 2010.



OEI-03-10-00440          Comparison of First-Quarter 2010 ASPs and AMPs
Page 8 – Donald M. Berwick, M.D.


in two consecutive or three of four quarters. We then totaled the estimated savings for that
subset of codes.

Comparing First-Quarter 2010 Volume-Weighted ASPs and AMPs for HCPCS Codes
With Partial AMP Data
For each of the 134 HCPCS codes with partial AMP data, we compared the volume-weighted
ASP and AMP and determined whether the ASP for the code exceeded the AMP by at least
5 percent. For HCPCS codes that met the 5-percent threshold, we reviewed the associated NDCs
to verify the accuracy of the billing units. According to our review, NDCs for one code had
billing unit information in CMS’s crosswalk file that may not have accurately reflected the
number of billing units actually contained in the NDC. Because volume-weighted ASPs and
AMPs are calculated using this billing unit information, we could not be certain that the results
for this code were correct. Therefore, we excluded this HCPCS code from our findings.

For each of the remaining HCPCS codes that met the 5-percent threshold, we determined
whether missing AMPs unduly influenced the results of our pricing comparison. As mentioned
previously, the volume-weighted AMP for a HCPCS code with partial AMP data is based on
fewer NDCs than the volume-weighted ASP for that same code. Therefore, there may be a
disparity between the volume-weighted ASP and AMP that would not exist if AMP data were
available for the full set of NDCs. In other words, the volume-weighted ASP for the HCPCS
code could exceed the volume-weighted AMP by at least 5 percent only because AMPs for
certain NDCs were not represented.

To identify HCPCS codes with partial AMP data that met the 5-percent threshold only because
AMP data were missing, we reanalyzed pricing data after accounting for the missing values.
Specifically, we replaced each missing AMP with its corresponding ASP and recalculated the
volume-weighted AMPs using those imputed prices. 28 We then compared those new volume-
weighted AMPs to the volume-weighted ASPs originally calculated by CMS.

If a HCPCS code no longer met the 5-percent threshold, we concluded that the missing AMPs
were likely responsible for the HCPCS code initially meeting the threshold, as opposed to an
actual disparity between ASPs and AMPs in the marketplace.

If a HCPCS code continued to meet the 5-percent threshold, we concluded that missing AMPs
had little impact on the results of our pricing comparison. These HCPCS codes likely met the
threshold as a result of actual pricing differences between ASPs and AMPs. Because price
substitutions for these HCPCS codes may be warranted, we estimated the monetary impact of
lowering reimbursement to 103 percent of the new volume-weighted AMPs. We also identified
HCPCS codes with partial AMP data that met the threshold in two consecutive or three of four
quarters and totaled the estimated savings for that subset of codes.

28
  Although an NDC’s ASP is not usually the same as its AMP, it is generally within about 5 percent of the AMP on
average. Therefore, we believe that ASP acts as a reasonable proxy for AMP, ensuring that the NDC is represented
in both the volume-weighted ASP and the volume-weighted AMP for the HCPCS code.



OEI-03-10-00440       Comparison of First-Quarter 2010 ASPs and AMPs
Page 9 – Donald M. Berwick, M.D.


Limitations
We did not verify the accuracy of manufacturer-reported ASP and AMP data, nor did we verify
the underlying methodology used by manufacturers to calculate ASPs and AMPs. Furthermore,
we did not verify the accuracy of CMS’s crosswalk files or examine NDCs that CMS opted to
exclude from its calculation of Part B drug reimbursement amounts.

Manufacturers are required to submit their quarterly ASP and AMP data to CMS 30 days after
the close of the quarter. Our analyses were performed on ASP and AMP data compiled by CMS
soon after that deadline. We did not determine whether manufacturers provided additional or
revised pricing data to CMS at a later date.

Standards
This study was conducted in accordance with the Quality Standards for Inspections approved by
the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Of the 318 Drug Codes With Complete AMP Data, Volume-Weighted ASPs for
13 Exceeded the Volume-Weighted AMPs by at Least 5 Percent
Consistent with sections 1847A(d)(2)(B) and 1847A(d)(3) of the Act, OIG compared ASPs to
AMPs to identify instances in which the ASP for a particular drug exceeded the AMP by a
threshold of 5 percent. In the first quarter of 2010, 13 of the 318 HCPCS codes with complete
AMP data (4 percent) met this 5-percent threshold. Table 2 describes the extent to which ASPs
exceeded AMPs for the 13 HCPCS codes. For one of the codes, the volume-weighted ASP
exceeded the volume-weighted AMP by more than 20 percent. A list of all 13 HCPCS codes,
including their descriptions and HCPCS dosage amounts, is presented in Appendix D.

                      Table 2: Extent to Which ASPs Exceeded AMPs for
                          13 HCPCS Codes With Complete AMP Data
                         Percentage by Which ASP             Number of HCPCS
                         Exceeded AMP                                   Codes
                         5.00%–9.99%                                           7
                         10.00%–19.99%                                         5
                         20.00%–29.99%                                         1
                         30.00%–39.99%                                         0
                         40.00%–49.99%                                         0
                         50.00%–59.99%                                         0
                         60.00%–69.99%                                         0
                         70.00%–79.99%                                         0
                         80.00%–89.99%                                         0
                         90.00%–99.99%                                         0
                         100% and above                                        0
                            Total                                             13
                        Source: OIG analysis of first-quarter 2010 ASP and AMP data, 2010.




OEI-03-10-00440    Comparison of First-Quarter 2010 ASPs and AMPs
Page 10 – Donald M. Berwick, M.D.


Pursuant to section 1847A(d)(3) of the Act, the Secretary may disregard the ASP for a drug that
meets the 5-percent threshold and shall substitute the payment amount with the lesser of either
the widely available market price or 103 percent of the AMP. If reimbursement amounts for all
13 codes with complete AMP data had been based on 103 percent of the AMPs during the third
quarter of 2010, we estimate that Medicare expenditures would have been reduced by $988,000
in that quarter alone. 29 Three of the thirteen HCPCS codes accounted for over 90 percent of the
estimated savings. If the reimbursement amounts for codes J9214, J2792, and J2916 had been
based on 103 percent of the AMPs during the third quarter of 2010, we estimate that Medicare
expenditures would have been reduced by $591,000, $186,000, and $127,000, respectively.

If CMS’s proposed price substitution policy had been in effect, reimbursement amounts for 10 of
the 13 HCPCS codes would have been reduced. These 10 HCPCS codes had complete AMP
data and met the 5-percent threshold in either two consecutive quarters or three of four quarters.
If reimbursement amounts for the 10 codes had been based on 103 percent of the AMPs during
the third quarter of 2010, Medicare expenditures would have been reduced by an estimated
$840,000.

Table 3 presents a list of the 10 HCPCS codes that would have been eligible for price
substitution if CMS’s proposed policy had been in effect.
          Table 3: Ten HCPCS Codes With Complete AMP Data in the First Quarter of 2010
                That Would Have Met CMS’s Proposed Criteria for Price Substitution
                                                      OIG Reports Comparing ASP and AMP
                                                              Fourth           Third          Second
                      HCPCS           First Quarter
                                                             Quarter         Quarter          Quarter
                      Code                    2010
                                                                2009           2009             2009

                      J2765                 X               X*                X               X
                      J2792                 X                X                X               X
                      J2597                 X                                 X               X
                      J0210                 X                X                X
                      J1327                 X                X                X
                      J9214                 X                X                X
                      J9340                 X                X                X
                      J9280                 X                X
                      J9290                 X                X
                      J9291                 X                X
                    *This code previously met the 5-percent threshold during the specified quarter based
                    on partial AMP data. For all other quarters, codes met the 5-percent threshold based
                    on complete AMP data. Source: OIG analysis of ASP and AMP data from the second
                    quarter of 2009 through the first quarter of 2010.




29
  All savings estimates in this report assume that the number of services that were allowed by Medicare in 2009
remained consistent from one quarter to the next and that there were no significant changes in utilization between
2009 and 2010.



OEI-03-10-00440        Comparison of First-Quarter 2010 ASPs and AMPs
Page 11 – Donald M. Berwick, M.D.


Of the 134 Drug Codes With Partial AMP Data, Volume-Weighted ASPs for
25 Exceeded the Volume-Weighted AMPs by at Least 5 Percent
In addition to examining HCPCS codes with complete AMP data, we examined 134 HCPCS
codes for which only partial AMP data were available. ASPs for 25 of these 134 HCPCS codes
(19 percent) exceeded the AMPs by at least 5 percent in the first quarter of 2010. A list of the
25 HCPCS codes, including their descriptions and HCPCS dosage amounts, is presented in
Appendix E.

For 7 of the 25 HCPCS codes, missing AMPs likely had little influence on the outcome of the
pricing comparisons. Seven of the twenty-five HCPCS codes with partial AMP data continued
to meet the threshold when we accounted for missing AMPs, suggesting that the pricing
comparisons for these codes were accurately capturing underlying market trends even when
AMP data were not available for the full set of NDCs. Because missing AMPs likely had little
influence on the pricing comparison results for these seven HCPCS codes, price substitutions
may be legitimately warranted in these cases. If reimbursement amounts for the seven codes had
been based on 103 percent of the AMPs, we estimate that Medicare expenditures would have
been reduced by $27,000 during the third quarter of 2010.

Table 4 describes the extent to which ASPs exceeded AMPs for the seven HCPCS codes. For
one of the codes, volume-weighted ASPs exceeded volume-weighted AMPs by almost
70 percent.

                       Table 4: Extent to Which ASPs Exceeded AMPs for
                          Seven HCPCS Codes With Partial AMP Data
                           Percentage by Which ASP              Number of HCPCS
                           Exceeded AMP                                    Codes
                           5.00%–9.99%                                           2
                           10.00%–19.99%                                         3
                           20.00%–29.99%                                         1
                           30.00%–39.99%                                         0
                           40.00%–49.99%                                         0
                           50.00%–59.99%                                         0
                           60.00%–69.99%                                         1
                           70.00%–79.99%                                         0
                           80.00%–89.99%                                         0
                           90.00%–99.99%                                         0
                           100% and above                                        0
                              Total                                              7
                          Source: OIG analysis of first-quarter 2010 ASP and AMP data, 2010.


For the remaining 18 of 25 HCPCS codes, ASPs no longer exceeded the AMPs by at least
5 percent in the first quarter of 2010, indicating that these codes initially met the threshold
because of missing AMP data rather than a genuine pricing disparity between ASPs and AMPs.



OEI-03-10-00440    Comparison of First-Quarter 2010 ASPs and AMPs
Page 12 – Donald M. Berwick, M.D.


Of the seven HCPCS codes on which missing AMPs likely had little influence, four met the
5-percent threshold in either two consecutive or three of four quarters. Although CMS’s
proposed price substitution policy would not apply to HCPCS codes with partial AMP data,
ASPs for these four codes repeatedly met or exceeded the AMPs by at least 5 percent. If
reimbursement amounts for the four codes had been substituted with 103 percent of the AMPs,
Medicare expenditures would have been reduced by an estimated $10,000 during the third
quarter of 2010.

Table 5 presents a list of the four HCPCS codes with partial AMP data that met the threshold in
two consecutive or three of four quarters.

          Table 5: Four HCPCS Codes With Partial AMP Data in the First Quarter of 2010
          That Met the 5-Percent Threshold in Two Consecutive or Three of Four Quarters
                                               OIG Reports Comparing ASP and AMP
                                            First          Fourth            Third         Second
                     HCPCS
                                          Quarter         Quarter          Quarter         Quarter
                     Code
                                            2010             2009            2009            2009

                     J0560                X                X               X*              X
                     J7509                X                X               X               X
                     J7506                X                                X               X
                     J1940                X                X
                   *This code previously met the 5-percent threshold during the specified quarters
                   based on complete AMP data. For all other quarters, codes met the 5-percent threshold
                   based on partial AMP data. Source: OIG analysis of ASP and AMP data from the second
                   quarter of 2009 through the first quarter of 2010.


Pricing Comparisons Could Not Be Performed on 68 Drug Codes Because No AMP Data
Were Available
For 68 HCPCS codes, OIG could not compare ASPs and AMPs because there were no AMP data
for any of the 260 NDCs that CMS used when calculating drug reimbursement amounts for these
codes. In 2009, Medicare allowances for these 68 codes totaled $345 million. 30

Manufacturers for 23 percent of the NDCs without AMP data (60 of 260) participated in the
Medicaid drug rebate program as of the first quarter of 2010 and were therefore generally
required to submit AMP data for their covered outpatient drugs. 31, 32, 33 The majority of these
60 NDCs belonged to 4 manufacturers.

30
   Of the 68 HCPCS codes with no associated AMP data, 4 had no expenditures listed in the 2009 PBAR file. As a
result, these codes were not included in the total Medicare allowances for the year.
31
   To determine whether a manufacturer participated in the Medicaid drug rebate program, we consulted the list of
participating drug companies posted on CMS’s Web site.
32
   Although manufacturers with rebate agreements are required to submit AMP data for their covered outpatient
drugs, there may be valid reasons why an AMP was not provided for a specific NDC in a given quarter. For
example, a manufacturer may not have been required to submit an AMP if the drug product had been terminated and
there was no drug utilization during the quarter.
33
   These 60 NDCs were crosswalked to 33 HCPCS codes.



OEI-03-10-00440       Comparison of First-Quarter 2010 ASPs and AMPs
Page 13 – Donald M. Berwick, M.D.


Manufacturers for the remaining 200 of 260 NDCs did not participate in the Medicaid drug
rebate program and therefore were not required to submit AMP data.

CONCLUSION

To monitor Medicare reimbursement amounts based on ASPs and consistent with its statutory
mandate, OIG compared ASPs and AMPs to identify instances in which the ASP for a particular
drug exceeded the AMP by at least 5 percent. This is OIG’s 18th report comparing ASPs and
AMPs, and it examines HCPCS codes with AMP data for every NDC that CMS used to establish
reimbursement amounts, as well as HCPCS codes with only partial AMP data.

In the first quarter of 2010, we identified a total of 38 HCPCS codes that met the threshold for
price adjustment specified in the Act. If CMS’s proposed price substitution policy had been in
effect, reimbursement amounts for 10 of these HCPCS codes would have been lowered to 103
percent of the AMP, resulting in an estimated savings of $840,000 for the quarter. Although
CMS’s proposed price substitution policy would not apply to codes with partial AMP data, we
identified HCPCS codes for which price reductions may be legitimately warranted because
missing AMPs likely had little influence on the pricing comparison results. We recognize that
the estimated savings associated with these particular HCPCS codes is not substantial; however,
by excluding from its policy all codes with partial AMP data, CMS may inadvertently provide
drug manufacturers with a disincentive to submit timely AMPs. We could not compare ASPs
and AMPs for 68 HCPCS codes because AMP data were not submitted for any of the NDCs that
CMS used to calculate reimbursement. Manufacturers for 23 percent of these NDCs had
Medicaid drug rebate agreements and were therefore generally required to submit AMPs. OIG
will continue to work with CMS to evaluate and pursue appropriate actions against those
manufacturers that fail to submit required data.

Some of OIG’s previous reports comparing ASPs and AMPs have contained recommendations,
which we continue to support. 34 We are not making additional recommendations in this report
and, as such, are issuing the report directly in final form. If you have comments or questions
about this report, please provide them within 60 days. Please refer to report number
OEI-03-10-00440 in all correspondence.




34
     For example, OEI-03-08-00450, December 2008; and OEI-03-09-00350, February 2010.



OEI-03-10-00440         Comparison of First-Quarter 2010 ASPs and AMPs
Page 14 – Donald M. Berwick, M.D.


APPENDIX A

The Equation Used by the Centers for Medicare & Medicaid Services To Calculate
Volume-Weighted Average Sales Prices on or After April 1, 2008


A volume-weighted average sales price (ASP) is calculated for the dosage amount associated with
the Healthcare Common Procedure Coding System (HCPCS) code. In the following equation, the
“number of billing units” represents the number of HCPCS code doses that are contained in a
national drug code (NDC).



       Volume-Weighted ASP            Sum of (ASP for NDC * Number of NDCs Sold)
        for Dosage Amount  =
          of HCPCS Code        Sum of (Number of NDCs Sold * Number of Billing Units in NDC)




OEI-03-10-00440   Comparison of First-Quarter 2010 ASPs and AMPs
Page 15 – Donald M. Berwick, M.D.


APPENDIX B

Previous Office of Inspector General Reports Comparing Average Sales Prices and Average
Manufacturer Prices


                     Monitoring Medicare Part B Drug Prices: A Comparison of Average Sales
                      Prices to Average Manufacturer Prices, OEI-03-04-00430, April 2006


                     Comparison of Fourth-Quarter 2005 Average Sales Prices to Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Second Quarter
                      2006, OEI-03-06-00370, July 2006


                     Comparison of Third-Quarter 2006 Average Sales Prices to Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                      2007, OEI-03-07-00140, July 2007


                     Comparison of First-Quarter 2007 Average Sales Prices to Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                      2007, OEI-03-07-00530, September 2007


                     Comparison of Second-Quarter 2007 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Fourth Quarter
                      2007, OEI-03-08-00010, December 2007


                     Comparison of Third-Quarter 2007 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                      2008, OEI-03-08-00130, May 2008


                     Comparison of Fourth-Quarter 2007 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Second Quarter
                      2008, OEI-03-08-00340, August 2008


                     Comparison of Average Sales Prices and Average Manufacturer Prices: An
                      Overview of 2007, OEI-03-08-00450, December 2008



OEI-03-10-00440       Comparison of First-Quarter 2010 ASPs and AMPs
Page 16 – Donald M. Berwick, M.D.


                     Comparison of First-Quarter 2008 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                      2008, OEI-03-08-00530, December 2008


                     Comparison of Second-Quarter 2008 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Fourth Quarter
                      2008, OEI-03-09-00050, February 2009


                     Comparison of Third-Quarter 2008 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                      2009, OEI-03-09-00150, April 2009


                     Comparison of Fourth-Quarter 2008 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Second Quarter
                      2009, OEI-03-09-00340, August 2009


                     Comparison of First-Quarter 2009 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                      2009, OEI-03-09-00490, August 2009


                     Comparison of Second-Quarter 2009 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Fourth Quarter
                      2009, OEI-03-09-00640, January 2010


                     Comparison of Average Sales Prices and Average Manufacturer Prices: An
                      Overview of 2008, OEI-03-09-00350, February 2010


                     Comparison of Third-Quarter 2009 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                      2010, OEI-03-10-00150, April 2010


                     Comparison of Fourth-Quarter 2009 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Second Quarter
                      2010, OEI-03-10-00350, July 2010


OEI-03-10-00440       Comparison of First-Quarter 2010 ASPs and AMPs
Page 17 – Donald M. Berwick, M.D.


APPENDIX C

Detailed Methodology for Converting and Volume-Weighting Average Manufacturer
Prices for the First Quarter of 2010

Healthcare Common Procedure Coding System codes with complete average manufacturer price
data. Of the 529 Healthcare Common Procedure Coding System (HCPCS) codes with
reimbursement amounts based on average sales prices (ASP), 326 had average manufacturer
prices (AMP) for every national drug code (NDC) that the Centers for Medicare & Medicaid
Services (CMS) used to calculate volume-weighted ASPs. These 326 HCPCS codes represented
1,205 NDCs. For 13 NDCs, we could not successfully identify the amount of the drug reflected
by the ASP and therefore could not calculate a converted AMP. These 13 NDCs were
crosswalked to 8 HCPCS codes. We did not include these 8 HCPCS codes (67 NDCs) in our
final analysis.

Using the converted AMPs for the remaining 1,138 NDCs, we then calculated a volume-
weighted AMP for each of the remaining 318 HCPCS codes consistent with CMS’s
methodology for calculating volume-weighted ASPs.

HCPCS codes with partial AMP data. There were 135 HCPCS codes with AMP data for only
some of the NDCs that CMS used in its calculation of volume-weighted ASPs. These
135 HCPCS codes represented a total of 1,738 NDCs. AMP data were either missing or
unavailable for 650 of these NDCs, which were then excluded from our calculation of
volume-weighted AMPs. 35

We calculated converted AMPs for each of the remaining 1,088 NDCs. For 7 of the
1,088 NDCs, we could not successfully identify the amount of the drug reflected by the ASP and
therefore could not calculate a converted AMP. We removed these seven NDCs from our
analysis. 36 As a result, one HCPCS code no longer had any NDCs with AMP data. Therefore,
this HCPCS code was removed from our analysis.

Using the converted AMPs for the remaining 1,081 NDCs, we then calculated a
volume-weighted AMP for each of the remaining 134 HCPCS codes consistent with CMS’s
methodology for calculating volume-weighted ASPs.




35
   Although AMP data for these 650 NDCs were excluded from our calculation of volume-weighted AMPs, the
corresponding ASPs were not excluded from the volume-weighted ASPs as determined by CMS.
Volume-weighted ASPs remained the same, regardless of the availability of AMP data.
36
   Although we removed NDCs with problematic AMP conversions, we did not remove the corresponding HCPCS
codes, provided that other NDCs for those drug codes had usable AMP data. This differs from our analysis of
HCPCS codes with complete AMP data, in which we removed not only the NDCs with problematic AMP
conversions, but also the corresponding HCPCS codes.



OEI-03-10-00440      Comparison of First-Quarter 2010 ASPs and AMPs
Page 18 – Donald M. Berwick, M.D.


HCPCS codes with no AMP data. For 68 HCPCS codes, there were no AMP data for any of the
NDCs that CMS used in its calculation of volume-weighted ASPs. These 68 HCPCS codes
represented 260 NDCs.




OEI-03-10-00440   Comparison of First-Quarter 2010 ASPs and AMPs
Page 19 – Donald M. Berwick, M.D.


APPENDIX D

Thirteen Drug Codes With Complete Average Manufacturer Price Data That Met the
5-Percent Threshold in the First Quarter of 2010


          Drug
          Code                                                    Short Description          Drug Code Dosage
          J0210                                           Methyldopate HCl injection                      250 mg

          J0834                                       Cosyntropin cortrosyn injection                    0.25 mg

          J1020                                          Methylprednisolone injection                      20 mg

          J1327                                                  Eptifibatide injection                     5 mg

          J2597                                       Desmopressin acetate injection                       1 mcg

          J2765                                         Metoclopramide HCl injection                       10 mg

          J2792                                     Rho(D) immune globulin injection                    100 units

          J2916                                          Na ferric gluconate complex                     12.5 mg

          J9214                                            Interferon alfa-2b injection            1 million units

          J9280                                                   Mitomycin injection                       5 mg

          J9290                                                   Mitomycin injection                      20 mg

          J9291                                                   Mitomycin injection                      40 mg

          J9340                                                     Thiotepa injection                     15 mg

         mcg=microgram, mg=milligram
         Source: Office of Inspector General analysis of first-quarter 2010 average sales price and average manufacturer
         price data, 2010.




OEI-03-10-00440       Comparison of First-Quarter 2010 ASPs and AMPs
Page 20 – Donald M. Berwick, M.D.


APPENDIX E

Twenty-five Drug Codes With Partial Average Manufacturer Price Data That Met the
5-Percent Threshold in the First Quarter of 2010


          Drug
          Code                                                     Short Description         Drug Code Dosage
          J0207                                                            Amifostine                     500 mg

          J0560                                       Penicillin g benzathine injection             600,000 units

          J0610                                           Calcium gluconate injection                       10 ml

          J0670                                            Mepivacaine HCl injection                        10 ml

          J1190                                            Dexrazoxane HCl injection                      250 mg

          J1940                                                  Furosemide injection                      20 mg

          J2700                                             Oxacillin sodium injection                    250 mg

          J2790                                     Rho(D) immune globulin injection                     300 mcg

          J3130                                     Testosterone enanthate injection                      200 mg

          J3260                                          Tobramycin sulfate injection                      80 mg

          J3475                                          Magnesium sulfate injection                      500 mg

          J7506                                                       Prednisone oral                       5 mg

          J7509                                              Methylprednisolone oral                        4 mg

          J7611                        Albuterol, noncompounded, concentrated form                          1 mg

          J7613                                 Albuterol, noncompounded, unit dose                         1 mg

          J7620                  Albuterol and ipratropium bromide, noncompounded                  2.5 mg/0.5 mg

          J9040                                            Bleomycin sulfate injection                    15 units

          J9060                                                     Cisplatin injection                    10 mg

          J9062                                                     Cisplatin injection                    50 mg

          J9178                                               Epirubicin HCl injection                      2 mg

          J9206                                                    Irinotecan injection                    20 mg

          Q0164                                            Prochlorperazine maleate                         5 mg

          Q0165                                            Prochlorperazine maleate                        10 mg

          Q9965                 Low osmolar contrast material,100–199 mg/ml iodine                           1 ml

          Q9966                 Low osmolar contrast material, 200–299 mg/ml iodine                          1 ml

         mcg=microgram, mg=milligram, and ml=milliliter
         Source: Office of Inspector General analysis of first-quarter 2010 average sales price and average manufacturer price
         data, 2010.




OEI-03-10-00440       Comparison of First-Quarter 2010 ASPs and AMPs
